Q@QCKLE

2311 Douglas Street : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B nl e fs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850

No. 19-

JORGE L. MEDINA,
Petitioner,
v.
WILLIAM P. BARR,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 5861 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 30th day of August, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE ‘
General Notary .
State of Nebraska . .

Notary Public Affiant 38170

My Commission Expires Nov 24, 2020

 
